             September 13, 2002

             MEMORANDUM

             FOR:             M/AS, Roberto J. Miranda

             FROM:            IG/A/ITSA, Melinda G. Dempsey /s/

             SUBJECT:         Risk Assessment of Major Functions Within the Travel and
                              Transportation Division of the Office of Administrative
                              Services, Bureau for Management
                              (Report No. A-000-02-005-S)

             This memorandum is our report on the subject risk assessment. Although
             this is not an audit report, this report contains suggestions for your
             consideration. We have reviewed your comments, and they are included as
             Appendix II. I appreciate the cooperation and courtesy extended to my
             staff during the risk assessment.


Background   The Office of Administrative Services, Bureau for Management, (M/AS)
             provides logistical support services and administrative services worldwide
             and is responsible for functions costing approximately $40 million annually.
             It is comprised of the Office of the Director1 and four divisions:

             •   Consolidation, Property and Services Division,2
             •   Information and Records Division,3
             •   Overseas Management Support Division,4 and
             •   Travel and Transportation Division.

             During the past decade, the Office of Inspector General has performed few
             audits of the Office of Administrative Services’ functions. In addition, the

             1
               See risk assessment Report No. A-000-02-001-S.
             2
               See risk assessment Report No. A-000-02-002-S.
             3
               See risk assessment Report No. A-000-02-003-S.
             4
               See risk assessment Report No. A-000-02-004-S.



                                                                                  Page 1 of 11
Office of Administrative Services has received limited external reviews and
evaluations from other sources. Given the lack of external independent
reviews, including audits, we performed risk assessments of the major
functions of the Travel and Transportation Division of the Office of
Administrative Services.

The General Accounting Office’s “Standards for Internal Control in the
Federal Government” (November 1999) note that internal controls should
provide reasonable assurance that agency objectives are being achieved,
operations are effective and efficient, and assets are safeguarded against
loss. Internal controls consist of the following five interrelated
components. These components are the minimum level for internal control
and provide the basis against which internal control is to be evaluated.

1. Management and employees should establish and maintain a control
   environment throughout the agency that sets a positive and supportive
   attitude toward internal control and conscientious management.
2. Internal control should provide for a risk assessment of the risks the
   agency faces from both external and internal sources.
3. Internal control activities should be effective and efficient in
   accomplishing the agency’s control objectives and help ensure that
   management’s directives are carried out.
4. Information should be recorded and communicated to management and
   others within the agency who need it and in a form and within a time
   frame that enables them to carry out their internal control and other
   responsibilities.
5. Internal control monitoring should assess the quality of performance
   over time and ensure that the findings of audits and other reviews are
   promptly resolved.

This review focused on the second component—risk assessment. The
GAO Standards note that the specific risk analysis methodology used can
vary because of differences in agencies’ missions and the difficulty in
qualitatively and quantitatively assigning risk levels. This review assigned
a risk exposure of either high, moderate, or low for each major function. A
higher risk exposure simply indicates that the particular function is more
vulnerable to its program objectives not being achieved or irregularities
occurring. Appendix I describes in detail our risk assessment scope and
methodology.




                                                                     Page 2 of 11
Discussion   The Travel and Transportation Division of the Office of Administrative
             Services, Bureau for Management, (M/AS) is responsible for the
             following five major functions.5 Our assessments of the risk exposure
             for each of these major functions are described below.

                            Function Description                       Risk Exposure
                 Passports—Handling of passport
                 applications and passports                                  Low
                                        Risk Assessment Factors
                 • Passport handling has limited dollar vulnerability.
                 • Passports contain personal information critical for the safety and
                    security of employees.
                 • Contractor is currently responsible for delivering application to State
                    Department and passport back to USAID.
                 • Function has been transferred to a contractor who is responsible for
                    the passport process.
                 • Process is straightforward and simplistic.
                 • Policies stated in ADS 522 are outdated and/or need revision.
                 • Standard operating procedures are not documented.
                 • Customer service standards have been established. Effective
                    performance measurement has not yet been implemented.
                 • Customer service feedback has been solicited for services provided
                    since July 2001.


                             Function Description                   Risk Exposure
                 Policy—Promulgation and interpretation of
                 USAID and government travel policies                  Moderate
                                          Risk Assessment Factors
                 • Policy interpretation can impact costs to USAID and/or individual
                     employees.
                 • Several travel policies are outdated.
                 • Standard operating procedures are not documented.
                 • Customer service standards have been established. Effective
                     performance measurement, including the measurement of customer
                     service, has not yet been implemented.

             5
              Our risk assessments only covered major functions. In addition to the major functions
             described in this report, the Travel and Transportation Division also is responsible for
             claims for personal property losses incident to government service, management of the
             USAID travel agent contractor, and technical assistance for the travel management
             software.



                                                                                               Page 3 of 11
             Function Description                         Risk Exposure
Storage—Storage of household effects
incident to government service                                High
                         Risk Assessment Factors
• USAID obligated $850,000 in fiscal year 2001 for the storage of
    household effects.
• Division does not know the number of employees with household
    effects in storage. Their best estimate ranges from 400 to 800
    employees.
• This function processed about 1,300 bills in fiscal year 2001.
    Approximately half of these bills were paid monthly even though the
    Division is attempting to institute quarterly billing.
• This function comprises 85 percent of the Travel and Transportation
    Division budget.
• No prior audits or other independent evaluations have been
    conducted since 1995.
• Function is the primary responsibility of one staff person with two
    years’ experience who also handles another function.
• Training for the function is not standardized.
• Current record keeping is lacking. The Division is implementing a
    computerized system to manage storage. Although the system is
    ready, it has not yet been used because data has not been entered.
• Written procedures are out-of-date.
• Billing reviews are limited in scope. Elements reviewed include
    employee eligibility and duplication. Elements not effectively
    reviewed include weight allowances and 90-day storage limit for
    employees returning to the U.S. Segregation of duties is limited in
    billing reviews.
• Division has recently surveyed 350 customers from fiscal year 2001
    regarding service.
• Customer service standards have been established. Effective
    performance measurement, including the measurement of customer
    service, has not yet been implemented.




                                                              Page 4 of 11
           Function Description                         Risk Exposure
Transportation of household effects incident
to government service                                          High
                         Risk Assessment Factors
• USAID obligated about $6 million in fiscal year 2001. None of this
    amount is paid by the Travel and Transportation Division. Rather,
    the predominate portion of this amount was paid by USAID overseas
    missions with the balance paid by Washington bureaus. However,
    approximately half of these payments are made to shipping vendors
    selected by transportation counselors of the Travel and
    Transportation Division.
• This function processes approximately 1,400 shipments (household
    effects, unaccompanied baggage, and consumables) in a fiscal year.
• No prior audits or other independent evaluations have been
    conducted since 1995.
• Function is staffed by three transportation counselors.
• Training for the function is not standardized.
• Internal control is minimal.
• The procedures for the selecting/dropping of shipping vendors are
    not documented.
• No system of logs maintained.
• In response to an IG audit recommendation on the subject of
    processing of claims for personal property losses during an
    evacuation (Audit Report No. A-000-99-006-P), the Office of
    Administrative Services created a USAID version of the Department
    of State’s Transportation guide (“It’s Your Move”). However, its
    use is inconsistent, and there is no standard process or scheduled
    time for updating the information.
• The Division plans to add current USAID information to the State
    web version of “It’s Your Move”.
• Two of three staff persons have not been requested to submit the
    annual financial disclosure form or attend the annual ethics training
    despite substantial participation in an activity with a direct economic
    effect on a non-federal entity.
• Division has recently surveyed 350 customers from fiscal year 2001
    regarding service.
• Customer service standards have been established. Effective
    performance measurement, including the measurement of customer
    service, has not yet been implemented.




                                                                  Page 5 of 11
                            Function Description                       Risk Exposure
                 Travel authorization                                     Moderate
                                         Risk Assessment Factors
                 • Travel and Transportation Division processes approximately 4,000
                    travel authorizations in a fiscal year.
                 • Travel authorizations are used for obligating travel funds in the
                    USAID financial management system.
                 • Travel authorization contains sensitive personal information.
                 • Policies and procedures, including the applicable ADS, are
                    out-of-date or lacking.
                 • Division has recently surveyed 350 customers from fiscal year 2001
                    regarding service.
                 • Customer service standards have been established. Effective
                    performance measurement, including the measurement of customer
                    service, has not yet been implemented.



Conclusion   Our risk assessments of the Travel and Transportation Division of the Office
             of Administrative Services, Bureau for Management, (M/AS) covered five
             functions and reached the following conclusions.

                                                                  Risk Exposure
                          Function Description                High    Moderate         Low
                 Passports—Handling of passport
                 applications and passports                                             !
                 Policy—Promulgation and interpretation of
                 USAID and government travel policies                      !
                 Storage—Storage of household effects
                 incident to government service                !
                 Transportation of household effects
                 incident to government storage                !
                 Travel authorization
                                                                           !
             Based on these risk assessments, we suggest that the Office focus its efforts
             to mitigate higher risk associated with the functions of (1) storage of
             household effects and (2) transportation of household effects. Specifically
             for the storage function, we suggest that the Office:

             •    implement the available computerized system to manage storage,
             •    implement written procedures including billing reviews, and
             •    standardize training requirements.




                                                                                Page 6 of 11
Specifically for the transportation function, we suggest that the Office:

•   implement written procedures including the selecting/dropping criteria
    for shipping vendors and a system of logs,
•   require submission of annual financial disclosure statements and
    attendance at annual ethics training, and
•   standardize training requirements.

Beyond these two high-risk functions, we suggest that the Office of
Administrative Services institute the following improvements that generally
cut across all major functions:

•   update policies as needed including ADS chapters, and
•   implement effective performance measurement systems, including the
    measurement of customer service.

Both the Travel and Transportation Division and Office of
Administrative Services management agreed with our risk assessments
and our suggested courses of action. The Office of Administrative
Services noted in their comments on the draft report (see Appendix II)
that these assessments of vulnerabilities were an opportune first step for
the business transformation urged by the new Assistant Administrator
for the Management Bureau.




                                                                    Page 7 of 11
                                                                                       Appendix I


Scope and     Scope
Methodology
              The Office of Inspector General, Information Technology and Special
              Audits Division, conducted a risk assessment of major functions within the
              Travel and Transportation Division of the Office of Administrative
              Services, Bureau for Management (M/AS). This risk assessment was not
              an audit. The risk assessment covered operations principally for fiscal year
              2001. The risk assessment was conducted at USAID headquarters in
              Washington, D.C. from October 12, 2001 to February 14, 2002.

              Our risk assessments of the Travel and Transportation Division’s major
              functions have the following limitations in their application.

              •   First, we assessed risk at the major function level only, not at the
                  Division or Office level.
              •   Second, we assessed risk only. Our risk assessments were not
                  sufficient to make definitive determinations of the effectiveness of
                  internal controls for major functions. Consequently, we did not
                  generally (a) assess the adequacy of internal control design, (b)
                  determine if controls were properly implemented, and (c) determine if
                  transactions were properly documented. If we were able to make these
                  types of determinations within the scope of our work, we reported on
                  them accordingly as part of our risk exposure assessments.
              •   Third, higher risk exposure assessments are not definitive indicators
                  that program objectives were not being achieved or that irregularities
                  were occurring. A higher risk exposure simply indicates that the
                  particular function is more vulnerable to such events.
              •   Fourth, risk exposure assessments, in isolation, are not an indicator of
                  management capability due to the fact that risk assessments consider
                  both internal and external factors, some being outside the span of
                  control of management.
              •   Fifth, comparison of risk exposure assessments between organizational
                  units is of limited usefulness due to the fact that risk assessments
                  consider both internal and external factors, some being outside the span
                  of control of management.

              Methodology

              We interviewed officials as well as reviewed related documentation of
              major functions performed by the Travel and Transportation Division.
              These documents covered background, organization, management,
              budget, relevant laws and regulations, staffing responsibilities, prior
              reviews, internal controls, and risks (i.e., vulnerabilities). Our review of
              Travel and Transportation Division documentation was limited and



                                                                                    Page 8 of 11
judgmental in nature and conducted principally to confirm oral attestations
of management.

We identified the Travel and Transportation Division’s major functions
using the input of the Division Director and based on the significance and
sensitivity of each major function. We determined risk exposure for all
major functions in each division, e.g., the likelihood of significant abuse,
illegal acts, and/or misuse of resources, failure to achieve program
objectives, and noncompliance with laws, regulations and management
policies. We assessed overall risk as high, moderate, or low. A higher risk
exposure simply indicates that the particular function is more vulnerable to
its program objectives not being achieved or that irregularities were
occurring. We considered the following key steps in assessing risk:

(a)    determined significance and sensitivity;
(b)    evaluated susceptibility of failure to attain program goals,
       noncompliance with laws and regulations, inaccurate reporting, or
       illegal or inappropriate use of assets or resources;
(c)    were alert to "red" flags such as a history of improper administration
       or material weaknesses identified in prior audits/internal control
       assessments, poorly defined and documented internal control
       procedures, or high rate of personnel turnover;
(d)    considered management support and the control environment;
(e)    considered competence and adequacy of number of personnel;
(f)    identified and understand relevant internal controls, and
(g)    determined what is already known about internal control
       effectiveness.

These risk assessments were not sufficient to make definitive determinations
of the effectiveness of internal controls for major functions. As part of the
review methodology, we did (a) identify, understand, and document (only as
necessary) relevant internal controls and (b) determine what was already
known about the effectiveness of internal controls. However, we did not
generally (a) assess the adequacy of internal control design, (b) determine if
controls were properly implemented, nor (c) determine if transactions were
properly documented. In some cases, we were able to make these
assessments and reported on them accordingly as part our risk exposure
assessments.




                                                                    Page 9 of 11
                                                               Appendix II

 Management
 Comments




                                      March 19, 2002




MEMORANDUM

TO:        Melinda Dempsey, IG/A/ITSA

FROM:        Roberto J. Miranda, M/AS/OD

SUBJECT:   Risk Assessment of Major Functions Within the Travel and
           Transportation Division of the Office of Administrative
           Services
           (Report No. A-000-02-xxx-S)


     M/AS/TT worked hand-in-hand with the Inspector General's office
on this survey believing that this assessment of vulnerabilities was
an opportune first step on the way to the business transformation
urged by the new Assistant Administrator for the Management Bureau.
We concur fully in the assessment of risk and recommendations based
upon information available at the time of the survey.

     Passports: SATO Travel is now fully in charge of the passport
and visa functions. They have been given Standard Operating
Procedures and are instructed to maintain reports of services
provided. We are in the process of updating ADS 522 and will point
to authoritative guidance from the State Department on passport
issues.

     Policy: At this point, only ADS 522 is outdated. This Chapter
is scheduled to be circulated for clearance by May. Standard
Operating Procedures were developed for all functions and
coordinated by the Chief of Policy for inclusion in the Vital
Records package. These SOPs will be updated as new procedures are
implemented.



                                                              Page 10 of 11
     Storage: Since the time of this audit, M/AS/TT has
investigated the State Department corollary function of storage
tracking and payment. Effective monitoring and reporting of storage
transactions are most efficiently provided within the STATS system
managed by State. Efforts are underway to provide access for this
purpose.   The State Department has also offered to provide access
and instruction to the Chief of M/AS/TT to develop a regular
reporting system.

     HHE Transportation: M/AS/TT recognizes the handling of
household effects is a serious vulnerability. For this reason,
strong weight is being given to applicants for the Chief position
with a background in transportation management and transportation
policy. The Acting Chief has secured a commitment from the State
Department to allow access to and education about effective use of
the STATS reporting tool. Many of the recommendations will provide
guidance for the new Chief. An updated M/AS/TT web page will
provide linkage to the State Department's "It's Your Move" as well
as other important guidance.

     Travel Authorization: On March 4, 2002, an updated log of TAs
was put in effect which now records the time to process. This will
enhance our performance measurement. Other aspects of this
recommendation should be met with the release of the updated ADS
522.

     In closing, M/AS/OD appreciates the professional assistance,
courtesy and help of the IG staff, particularly as we work to
implement your recommendations.




                                                             Page 11 of 11
